mwe.com
Michael B. Kimberly
Attorney at Law
mkimberly@mwe.com
+1 202 756 8901

September 25, 2020
BY ELECTRONIC FILING
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Maryland v. Rogers, No. 20-272

Dear Mr. Harris:
I represent respondent in this case. The petition for a writ of certiorari was filed on August
28, 2020 and docketed on September 2, 2020. Respondent’s brief in opposition is due, without
extension, on October 2, 2020. Pursuant to Rule 30.4, I respectfully request a 60-day extension
of time to file a brief in opposition, to and including December 1, 2020, which would permit
distribution and consideration of the petition at the January 8, 2021 conference.
The extension is necessary in light of the press of other business, including proximate
due dates in numerous other cases before this Court and pending appeals in the Second, Seventh,
and Tenth Circuits and the D.C. Court of Appeals.
Petitioner consents to the requested extension.
Thank you for your attention to this matter.

Sincerely,

cc: counsel of record for petitioner

500 North Capitol Street, NW Washington DC 20001-1531 Tel +1 202 756 8000 Fax +1 202 756 8087
US practice conducted through McDermott Will & Emery LLP.

